A-l
APPENDIX-A
UNITED STATES COURT OF APPEALS
For The District Of Colombia Circuit
No. 19-5141

September
Term, 2019
l:19-cv01045-UNA
Filed On:
September
17, 2019
BAHIG F. BISHAY,
Appellant
v.

UNITED STATES DEPARTMENT OF JUSTICE,
et al.,
Appellees
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
COLUMBIA
BEFORE: Tate 1 and Rao, Circuit Judges, and
Sentelle, Senior Circuit Judge
JUDGMENT
This appeal was considered on the record from
the United States District Court for the District of
Columbia and on the brief filed by appellant. See

A-2
Fed. R. App. P. 34(a)(2); D.C. Cir. Rule 34(j). It is
ORDERED AND ADJUDGED that the district
court's April 30, 2019 order be affirmed. The district
court correctly concluded that it lacked authority to
compel appellees to initiate a criminal investigation
or prosecution based on appellant's allegations of a
conspiracy to deprive him of property. See, e.g..
Heckler v. Chaney. 470 U.S. 821, 831-32 (1985)
("[A]n agency's decision not to prosecute or enforce,
whether through civil or criminal process, is a
decision generally committed to an agency's absolute
discretion."). With respect to appellant's contention
that appellees' decision not to pursue such an
investigation or prosecution deprived him of his
constitutional right to due process, the court
correctly concluded that "a private citizen lacks a
judicially cognizable interest in the prosecution or
nonprosecution of another." Linda R.S. v. Richard D.,
410 U.S. 614,619 (1973). Insofar as appellant sought,
in the alternative, an order directing appellees to
compensate him for the property involved in the
alleged conspiracy, the only basis advanced by
appellant for such a request was appellees' decision
not to investigate or prosecute, which is committed
to appellee agencies' absolute discretion. See
Heckler. 470 U.S. at 831.

A-3
UNITED STATES COURT OF APPEALS
For The District Of Colombia Circuit

September
Term, 2019

No. 19-5141

Pursuant to D.C. Circuit Rule 36, this
disposition will not be published. The Clerk is
directed to withhold issuance of the mandate herein
until seven days after resolution of any timely
petition for rehearing or petition for rehearing en
banc. See Fed. R. App. P. 41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

A-4
APPENDIX-B
UNITED STATES COURT OF APPEALS
For The District Of Colombia Circuit

No. 19-5141

September
Term, 2019
l:19-cv01045-UNA
Filed On:
September
3, 2019
BAHIG F. BISHAY,
Appellant
v.

UNITED STATES DEPARTMENT OF JUSTICE,
et al.,
Appellees
BEFORE: Tatel and Rao, Circuit Judges, and
Sentelle, Senior Circuit Judge
ORDER
The court concludes, on its own motion, that
oral argument will not assist the court in this case.
Accordingly, the court will dispose of the appeal
without oral argument on the basis of the record and
the presentations in appellant's brief. See Fed.
R. App. P. 34(a)(2); D.C. Cir. Rule 340).

A-5
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/si
Amy Yacisin
Deputy Clerk

A-6
APPENDIX-C
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
BAHIG F. BISHAY
v.
U.S. DEPARTMENT OF JUSTICE, et al.,
Civil Action No. l:19-cv-01045 (UNA)
ORDER
This matter has come before the Court on the
plaintiffs motion for reconsideration, which is
construed as one to alter or amend judgment under
Rule 59(e) of the Federal Rules of Civil Procedure. "A
Rule 59(e) motion is discretionary and need not be
granted unless the district court finds that there is
an 'intervening change of controlling law, the
availability of new evidence, or the need to correct a
clear error or prevent manifest injustice.'" Firestone
y. Firestone, 76 F.3d 1205, 1208 (D.C.Cir. 1996)
(citation and internal quotation marks omitted).
None of these circumstances is evident.
The plaintiff seeks an order directing the
defendants to initiate a criminal investigation into
and prosecute a criminal case against individuals
who allegedly conspired to steal the plaintiffs cash
and other property. The Court properly dismissed
the complaint, given its lack of authority to compel
discretionary acts, see, e.g., Coxy. Sec y of Labor, 739
F. Supp. 28, 30 (D.D.C. 1990), such as the initiation
of a criminal prosecution, see, e.g., Powell y,
Katzenbach, 359 F.2d 234, 234 (D.C. Cir. 1965) (per
curiam). Accordingly, it is hereby ORDERED that

A-7
the plaintiffs motion for reconsideration [7] is
DENIED.
United States District Judge
Date: May 22, 2019

A-8
APPENDIX-D
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
BAHIG F. BISHAY
v.
U.S. DEPARTMENT OF JUSTICE, et al.,
Civil Action No. l:19-cv-01045 (UNA)
ORDER
For the reasons stated in the-accompanying
Memorandum Opinion, it is ORDERED that
plaintiffs application to proceed in forma pauperis
[2] is GRANTED, and it is further ORDERED that
the complaint [1] and this civil action are
DISMISSED without prejudice.
This is a final appealable Order. See Fed. R. App. P.
4(a)
SO ORDERED.
United States District Judge
Date: April 29, 2019

A-9
APPENDIX-E
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
BAHIG F. BISHAY
v.
U.S. DEPARTMENT OF JUSTICE, et al.,
Civil Action No. l:19-cv-01045 (UNA)
MEMORANDUM OPINION
This matter is before the Court on its initial
review of plaintiffs pro se complaint ("Compl.") and
application for leave to proceed in forma pauperis.
The Court will grant the in forma pauperis
application and dismiss the case pursuant to 28
U.S.C. § 1915(e)(2)(B)(ii), mandating dismissal of a
complaint which fails to state a claim upon which
relief can be granted.
Plaintiff,
a
resident
of
Norwood,
Massachusetts, sues the U.S. Department of Justice,
the Federal Bureau of Investigation, Christopher A.
Wray, and James A. Crowell, IV. He alleges that his
constitutional rights have been violated because
defendants have declined to investigate and
prosecute an alleged existing criminal conspiracy to
steal his property. Plaintiff alleges that this
conspiracy involves a state judge and twenty-three
other individuals, none of whom are named in this
lawsuit. Plaintiff essentially seeks mandamus relief,
requesting that the Court demand that defendants
investigate and prosecute these alleged crimes.
The extraordinary remedy of a writ of
mandamus is available to compel an "officer or

A-10
employee of the United States or any agency thereof
to perform a duty owed to plaintiff." 28 U.S.C. §
1361. A plaintiff bears a heavy burden of showing
that his right to a writ-of mandamus is "clear and
indisputable." In re Cheney, 406 F.3d 723, 729 (D.C.
Cir. 2005) (citation omitted). "It is well-settled that a
writ of mandamus is not available to compel
discretionary acts." Cox v. Secyof Labor, 739 F. Supp.
28, 30 (D.D.C. 1990) (citing cases). "[Mjandamus is
'drastic'; it is available only in 'extraordinary
situations.'" Cheney, 406 F.3d at 729 (citations
omitted). Only if "(1) a plaintiff has a clear right to
relief, (2) a defendant has a clear duty to act, and (3)
there is no other adequate remedy available to the
plaintiff," Thomas v. Holder, 750 F.3d 899, 03 (D.C.
Cir. 2014), is mandamus relief granted. Plaintiff fails
to establish any of these elements, and thus fails to
meet his burden.
This court has no authority to compel these
defendants to initiate a criminal investigation or to
prosecute a criminal case. See Shoshone-Bannock
Tribes v. Reno, 56 F.3d 1476, 1480 (D.C. Cir. 1995)
(citations omitted); see also Cox v. Sec'y of Labor, 739
F. Supp. 28, 30 (D.D.C. 1990) (citing cases). The
decision of whether or not to prosecute, and for what
offense, rests with the prosecution. See, e.g.,
Bordenkircher v. Hayes, 434 U.S. 357, 364 (1978).
"[I]n American jurisprudence at least, a private
citizen lacks a judicially cognizable interest in the
prosecution or nonprosecution of another." Linda
R.S. v. Richard D., 410 U.S. 614, 619 (1973); see also
Sargeant v. Dixon, 130 F.3d 1067, 1069 (D.C. Cir.
1997); Powell v. Katzenbach, 359 F.2d 234, 234-35
(D.C. Cir. 1965) (per curiam) (concluding that
mandamus "will not lie to control the exercise" of

A-ll
Attorney General's discretion to decide whether or
when to institute criminal prosecution), cert, denied,
384 U.S. 906 (1966); Sattler v. Johnson, 857 F.2d
224,227 (4th Cir. 1988) (refusing to recognize
constitutional right "as a member of the public at
large and as a victim to have the defendants
criminally prosecuted"); Sibley v. Obama, 866 F.
Supp. 2d 17, 22 (D.D.C. 2012) (holding same).
Plaintiff cannot compel a criminal investigation by
any law enforcement agency. See Otero v. U.S.
Attorney General, 832 F.2d 141, 141-42 (11th Cir.
1987) (per curiam); see also Jafree v. Barber, 689
F.2d 640,643 (7th Cir. 1982). The Executive Branch
has absolute discretion to decide whether to conduct
an investigation or prosecute a case and such
decisions are not subject to judicial review. United
States v. Nixon, 418 U.S. 683,693 (1974); see also
Powell, 359 F.2d at 234-35; Shoshone-Bannock
Tribes, 56 F.3d at 1480-81. "[A]n agency's decision
not to prosecute or enforce, whether through civil or
criminal process, is a decision generally committed
to an agency's absolute discretion." Heckler v.
Chaney, 470 U.S. 821, 831 (1985). For these same
reasons, the Court has no jurisdiction to award the
other damages sought by plaintiff.
As such, the complaint is subject to dismissal
under 28 U.S.C. §§ 1915(e)(2)(B)(ii) for failure to
state a claim upon which relief may be granted. An
Order consistent with this Memorandum Opinion is
issued separately.
United States District Judge
Date: April 29, 2018 [sic]

A-12
APPENDIX-F
UNITED STATES COURT OF APPEALS
For The District Of Colombia Circuit
September
Term, 2019

No. 19-5141

l:19-cv01045-UNA
Filed On:
December
27, 2019
BAHIG F. BISHAY,
Appellant
v.

UNITED STATES DEPARTMENT OF JUSTICE
et al.,
Appellees
BEFORE: Tatel and Rao, Circuit Judges, and
Sentelle, Senior Circuit Judge
ORDER
Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk

A-13
BY:

/s/
Amy Yacisin
Deputy Clerk

A-14
APPENDIX-G
UNITED STATES COURT OF APPEALS
For The District Of Colombia Circuit
No. 19-5141

September
Term, 2019
l:19-cv01045-UNA
Filed On:
December
27, 2019

BAHIG F. BISHAY,
Appellant
v.
UNITED STATES DEPARTMENT OF JUSTICE
et al.,
Appellees
/

BEFORE: Garland, Chief Judge, and Henderson,
Rogers, Tatel, Griffith, Srinivasan,
Millett, Pillard, Wilkins, Katsas, and
Rao, Circuit Judges, and Sentelle,
Senior Circuit Judge
ORDER
Upon consideration of the petition for rehearing en
banc, and the absence of a request by any member of
the court for a vote, it is ORDERED that the petition
be denied.

A-15
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

n-

/s/
Amy Yacisin
Deputy Clerk

